                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE

                                  400 ARMY NAVY DRIVE

                             ARLINGTON, VIRGINIA 22202-4704





                                                                            May 18, 2007


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE (NETWORKS
                 AND INFORMATION INTEGRATION)IDEPARTMENT
                 OF DEFENSE CHIEF INFORMATION OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE INFORMATION SYSTEMS
                 AGENCY

SUBJECT:	 DFAS Corporate DatabaselDFAS Corporate Warehouse Compliance with
          the Defense Business Transformation Certification Criteria
          (Report No. D-2007-101)

Introduction. We are providing this report for your information and use. No written
response to this report was required. Therefore, we are publishing this report in final
form.

Background. The Deputy Under Secretary of Defense (Business Transformation)
requested that we review DoD Component compliance with the Defense Business
Transformation System Certification Criteria. This report is one in a series and discusses
compliance of the Defense Finance and Accounting Service (DFAS) Corporate
DatabaselDFAS Corporate Warehouse (DCDIDCW) with the Defense Business
Transformation System Certification Criteria. Additional reports will discuss other
business systems compliance.

The "Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005"
(NDAA) states that funds appropriated for Defense business system modernizations in
excess of $1 million may not be obligated unless certified by the Designated Approving
Authority and approved by the Defense Business Systems Management Committee. To
comply with the NDAA, the Defense Business Systems Management Committee issued
the "Investment Review Board Concept of Operations." The Investment Review Board
Concept of Operations provides guidance on certifying Defense business system
investments in excess of $1 million, which require review and approval by the Office of
the Secretary of Defense (OSD). Defense business system investments under $1 million
do not require an OSD-level review and approval, unless designated as a special interest
program. ∗ Instead, investments under $1 million are subject to a Component-level
review and approval process. Component-level investment review processes should be
consistent with the NDAA and the Investment Review Board Concept of Operations.

The Business Transformation Agency (BTA) currently owns DCD/DCW. However,
during the time of this audit, DFAS owned the system. DCD/DCW is a Tier 2 system
designated as a special interest program. DCD/DCW serves as a centralized repository of
consolidated DoD financial information that facilitates the sharing of information among
systems, functions, and applications, and with internal and external customers.

Objectives. The overall objective was to determine whether DCD/DCW was properly
certified and accredited in accordance with Defense Business Transformation
Certification criteria. Specifically, we determined whether DCD/DCW complied with the
Investment Review Process.

Scope and Methodology. We performed the audit at DFAS Headquarters in Arlington,
Virginia and at DFAS Indianapolis, Indiana. We reviewed the DFAS Investment Review
Process used to approve the obligation of funding for FY 2006 DCD/DCW
modernization efforts. We interviewed members of the Investment Review Working
Group (IRWG), as well as the DCD/DCW system manager. We also obtained and
reviewed DFAS Investment Review Process procedures and documentation.
Specifically, we reviewed charters, designation letters, the FY 2006 DCD/DCW
modernization workbook, and other related documentation.

We reviewed and compared the procedures and documentation we found to the following
laws, policies, and DFAS guidance related to the Defense Investment Review Process.
Specifically, we reviewed the following:

       •   Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act for
           Fiscal Year 2005,” October 28, 2004;

       •   Public Law 104-208, “Federal Financial Management Improvement Act ,”
           September 30, 1996;

       •   Public Law 104-106, “Clinger Cohen Act,” February 10, 1996;

       •   DoD Instruction 5200.4, “DoD Information Technology Security Certification
           and Accreditation Process,” December 30, 1997;



∗
    “Special interest” is based on technological complexity, Congressional interest, or program criticality to
    the achievement of a capability or set of capabilities. Special interest is also based on whether the
    program is a joint program or whether the resources committed to the program are substantial.



                                                        2
   •   DoD Manual 8510.1-M, “DoD Information Technology Security Certification and
       Accreditation Process Application Manual,” July 31, 2000;

   •   “Investment Review Process Overview and Concept of Operations For
       Investment Review Boards,” May 17, 2005;

   •   “Business Systems Investment Review Proposal Submission Guideline,” July 17,
       2005; and

   •   “DoD Information Technology Registry Merger Into the DoD Information
       Technology Portfolio Registry,” September 28, 2005.

We performed this audit from May 17, 2006 through June 16, 2006, in accordance with
generally accepted government auditing standards. We postponed the audit due to other
priorities and reannounced the audit on March 5, 2007. We did not review the
management control program as it related to the Investment Review Process because
none has been established for this process.

Results. Our review of the Investment Review Process for DCD/DCW identified three
deficiencies. Specifically, DFAS did not have controls in place to ensure segregation of
duties when posting the certification package to the DFAS e-Portal and the Investment
Review Board (IRB) Portal. In addition, controls were not in place to monitor and track
changes made to the certification documentation after posting the package to the DFAS
e-Portal and the IRB Portal. Finally, the DCD/DCW Program Office did not obtain the
appropriate coordination signatures for the System Security Authorization Agreements
(SSAAs) for DCD/webMethods© and DCW/Cognos® before the Designated Approving
Authority (DAA) certified the system.

We understand that DCD/DCW transitioned to BTA and is no longer the responsibility of
DFAS. However, the DFAS certification submission process should include procedures
that maintain segregation of duties when posting certification information to the DFAS e-
Portal and the IRB Portal; monitor and track changes made to certification
documentation; and ensure that the SSAAs include all coordination signatures prior to
DAA approval.

Segregation of Duties. The DCD/DCW Program Office could not maintain segregation
of duties when posting the completed certification package to the DFAS e-Portal, as
required by the Investment Review Submission guidelines. Specifically, staff in the
DFAS Chief Information Officer's (CIO) office posted the certification package
information to both the DFAS e-Portal and the IRB Portal. This occurred because the
DCD/DCW system manager did not have access to the e-Portal. DFAS implemented the
DFAS e-Portal in June 2005, and the DFAS CIO granted DFAS e-Portal access to the
DCD/DCW Business Line Portfolio Manager, who initially uploaded the certification
information. After DFAS phased out Business Lines in March 2006, the DFAS CIO
granted system managers access to the DFAS e-Portal. However, the DFAS CIO had not
trained the system managers on the use of the DFAS e-Portal and the deadline for
submitting certification information was August 2006. Therefore, to prevent further


                                            3
delays in submitting the certification documents, the DFAS CIO staff stepped in to
upload documents to the DFAS e-Portal until the DFAS CIO could properly train the
system managers. To ensure that the integrity of the certification package is preserved,
the DCD/DCW Program Office should upload certification information to the DFAS e-
Portal, and the DFAS CIO Office should upload certification information to the IRB
Portal.

Investment Review Submission guidelines require that the Pre-Certification Authority
post business system certification submission documents to the IRB Portal. Likewise, the
DFAS CIO requires program managers to post system information to the DFAS e-Portal.
DFAS system managers and the DFAS CIO should ensure proper segregation of duties
by requiring the DCD/DCW system manager to post the certification submission package
to the DFAS e-Portal and requiring the DFAS CIO to post the certification documents to
the IRB Portal. Although we identified this discrepancy during the audit, DFAS has
since resolved this issue by granting access to the DFAS e-Portal to all system managers
in March 2006. The DFAS CIO staff no longer uploads certification documents to the
DFAS e-Portal.

Change Controls. Controls were not in place to monitor and track changes made to
certification documents posted to the DFAS e-Portal. Specifically, the DCD/DCW
Program Office did not maintain a record of changes made to DCD/DCW certification
information after it posted the information to the DFAS e-Portal. In addition, controls did
not exist to ensure that certification information submitted by the system manager to the
Business Line Portfolio Manager and the DFAS CIO staff matched the certification
information in the DFAS e-Portal and the IRB Portal. This occurred because the
DCD/DCW system manager did not have access to the DFAS e-Portal during the time of
submission. The Business Line Portfolio Manager from the DFAS Acquisition
Management Office worked with the DCD/DCW system manager and functioned as a
coordinator for uploading the certification information to the DFAS e-Portal. Since only
the Business Line Portfolio Manager had access to the DFAS e-Portal, the DCD/DCW
system manager could not verify that all requested changes reflect in the current version
of the certification information in the DFAS e-Portal.

Although the DFAS e-Portal maintains all versions of certification submissions,
information may be unintentionally altered without the knowledge of a system manager.
Consequently, management may not be able to rely on the certification information.
Although we identified this discrepancy during the audit, DFAS has since resolved this
issue by granting access to the DFAS e-Portal to all system managers in March 2006.

Coordination Signatures for the SSAAs. DCD/DCW was not in full compliance with
the DoD Information Technology Security Certification and Accreditation Process
(DITSCAP). Specifically, the DCD/DCW Program Office did not obtain the
coordination signatures on the SSAAs for DCD/webMethods© and DCW/Cognos® before
the DAA certified the system. This occurred because DCD/DCW Program Office staff
received inaccurate information from the DAA office regarding the requirement for




                                            4
signatures. As a result of the lack of signature coordination, there was no way to
determine whether the SSAA had been properly reviewed. This may compromise the
confidentiality, integrity, and availability of the system's data.

The DITSCAP describes the SSAA as a fonnal agreement among the DAA, certifier,
user representative, and program manager. The purpose of the SSAA is to be the basis of
agreements throughout the system's life cycle. At each stage of development or
modification, more details are added to the SSAA. Any changes in the system that affect
its security posture must be submitted to the DAA, certifier, program manager, and user
representative for approval and inclusion in a revised SSAA. In order for the SSAA to
serve as a reliable, formal agreement, it must be signed by the certifier, user
representative, and program manager before it is certified by the DAA. The staffwas
informed that signatures would be required in the future, but were not necessary at that
time. However, while we were on site, the program office obtained the necessary
signatures and included them in the current SSAA.

Discussion of Results. We discussed the results of our work with the DCDIDCW
Program Office staff. They concurred with our conclusions, and DFAS took action to
correct the segregation of duties and change control deficiencies. The program office
corrected the coordination of signatures issue during the audit. As a result, this
memorandum report contains no recommendations and requires no further action.

We appreciate the courtesies extended to the staff. Questions should be directed to
Patricia A. Marsh at (703) 428-1422 (DSN 328-1422) or Donna A. Roberts at (703) 428­
1070 (DSN 328-1070).




                                 C~etto'CPA

                        Assistant Inspector General and Director

                          Defense Financial Auditing Service




cc:

Deputy Under Secretary of Defense for Business Transformation
Director, Acquisition Resource and Analysis




                                            5

